No. 19-1141

In the Supreme Court of the United States
ATLANTIC TRADING USA, LLC, ET AL., PETITIONERS
v.
BP P.L.C., ET AL., RESPONDENTS
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

RESPONDENTS’ BRIEF IN OPPOSITION
RICHARD C. PEPPERMAN II
Counsel of Record
JULIA A. MALKINA
SULLIVAN & CROMWELL LLP
125 Broad Street
New York, NY 10004
(212) 558-4000
peppermanr@sullcrom.com
AMANDA FLUG DAVIDOFF
SULLIVAN & CROMWELL LLP
1700 New York Avenue, NW
Suite 700
Washington, DC 20006
(202) 956-7500
Counsel for Respondents BP p.l.c., BP America Inc.,
and BP Corporation North America Inc.
[All parties and counsel listed on signature page]

QUESTION PRESENTED
Whether the Second Circuit correctly held that, under Morrison v. National Australia Bank Ltd., 561
U.S. 247 (2010), petitioners failed to plead a domestic
application of Sections 6(c)(1), 9(a)(2), and 22 of the
Commodity Exchange Act because the complaint alleges no manipulative conduct in the United States but
rather alleges only that respondents’ purported overseas manipulation of the price of a physical commodity
had “ripple effects” across global commodities markets
and, at the end of a long and highly attenuated chain of
causation, purportedly had an indirect effect on petitioners’ futures trades in the United States.

ii
PARTIES TO THE PROCEEDINGS
Petitioners are Atlantic Trading USA, LLC, John
Devivo, Anthony Insinga, Xavier Laurens, Kevin
McDonnell, Robert Michiels, Port 22, LLC, Prime International Trading, Ltd., Aaron Schindler, Neil Taylor, and White Oaks Fund LP.
Respondents are BP p.l.c., BP America Inc., BP
Corporation North America Inc., Hess Energy Trading Company, LLC (now known as Hartree Partners,
LP), Mercuria Energy Trading, Inc. (now known as
Mercuria Energy America, LLC), Mercuria Energy
Trading S.A., Morgan Stanley Capital Group Inc.,
Phibro Commodities Ltd. (now known as FP Westport
Commodities Ltd.), Phibro Trading LLC (now known
as FP Westport Trading LLC), Royal Dutch Shell, plc,
Shell International Trading and Shipping Company
Ltd., Shell Trading (US) Company, Statoil ASA (now
known as Equinor ASA), Statoil U.S. Holding Co. (now
known as Equinor US Holdings Inc.), Trafigura AG
(now known as Trafigura Trading, LLC), Trafigura
Beheer B.V., Vitol, Inc., and Vitol S.A.

iii
CORPORATE DISCLOSURE STATEMENT
Respondent BP p.l.c. has no parent corporation,
and no publicly held corporation owns ten percent or
more of its stock. Respondents BP America Inc. and
BP Corporation North America Inc. are indirectly
wholly owned subsidiaries of BP p.l.c., a publicly held
company.
Respondent Hess Energy Trading Company, LLC
(now known as Hartree Partners, LP), a privately held
limited partnership, has no parent corporation, and no
publicly held corporation owns ten percent or more of
its stock.
Respondents Mercuria Energy America, LLC (successor by merger to Mercuria Energy Trading, Inc.;
hereinafter, “MEA”) and Mercuria Energy Trading
S.A. (“METSA”) are indirectly wholly owned subsidiaries of Mercuria Energy Group Ltd., a privately held
company. No publicly held corporation owns ten percent or more of MEA’s or METSA’s stock.
Respondent Morgan Stanley Capital Group Inc. is
an indirectly wholly owned subsidiary of Morgan Stanley, a publicly held company.
Respondents Phibro Trading LLC (now known as
FP Westport Trading LLC) and Phibro Commodities
Ltd. (now known as FP Westport Commodities Ltd.)
are indirectly wholly owned subsidiaries of Occidental
Petroleum Corp., a publicly held company.

iv
Respondents Shell International Trading and Shipping Company Ltd. and Shell Trading (US) Company
are indirectly wholly owned subsidiaries of Royal
Dutch Shell, plc. Royal Dutch Shell, plc has no parent
corporation, and no publicly held corporation owns ten
percent or more of its stock.
Respondent Statoil U.S. Holding Co. (now known as
Equinor US Holdings Inc.) is an indirectly wholly
owned subsidiary of Statoil ASA (now known as Equinor ASA). Statoil ASA (now known as Equinor ASA)
has no parent corporation, and no publicly held corporation owns ten percent or more of its stock.
Respondents Trafigura Beheer B.V.’s and Trafigura AG’s (now known as Trafigura Trading, LLC) ultimate parent corporation is Farringford N.V. No publicly held entity owns ten percent or more of any of the
listed entities.
Respondent Vitol, S.A. is a privately held corporation and is an indirectly wholly owned subsidiary of Vitol Holding B.V. No publicly held company owns ten
percent or more of its stock. Respondent Vitol, Inc. is
a privately held corporation and is an indirectly wholly
owned subsidiary of Vitol Holding B.V. No publicly
held company owns ten percent or more of its stock.

v
TABLE OF CONTENTS
Page
Introduction .......................................................................... 1
Opinions Below ..................................................................... 4
Statement .............................................................................. 5
A. Legal Framework...................................................... 5
B. Factual Background .................................................. 6
C. Proceedings Below .................................................... 9
Argument ............................................................................ 15
A. The Decision Below Does Not Conflict With
Any Decision Of Any Other Court Of Appeals.... 17
1. Petitioners Concede That No Split Exists
Over Applying Morrison To The CEA’s
Substantive Provisions ..................................... 18
2. Neither Is There A Split Over Applying
Morrison To The CEA’s Private Right Of
Action .................................................................. 19
B. The Decision Below Is Correct And Does Not
Conflict With Any Decision Of This Court .......... 21
C. The Decision Below Is An Exceptionally Poor
Vehicle For Addressing The CEA’s
Extraterritorial Reach ............................................ 27
D. Petitioners Exaggerate The Significance Of
The Decision Below ................................................. 31
Conclusion ........................................................................... 36

vi
TABLE OF AUTHORITIES
Page(s)
Cases:
CFTC v. Monex Credit Co.,
931 F.3d 966 (9th Cir. 2019) .................................... 19
CFTC v. TFS-ICAP, LLC,
2020 WL 362930 (S.D.N.Y. Jan. 22, 2020) ............. 33
EEOC v. Arabian Am. Oil Co.,
499 U.S. 244 (1991) ................................................... 33
Ernst & Ernst v. Hochfelder,
425 U.S. 185 (1976) ................................................... 20
Greenwood v. Dittmer,
776 F.2d 785 (8th Cir. 1985) .................................... 19
In re Commodity Exch., Inc. Silver Futures &
Options Trading Litig.,
560 F. App’x 84 (2d Cir. 2014) ................................. 29
In re London Silver Fixing, Ltd., Antitrust Litig.,
213 F. Supp. 3d 530 (S.D.N.Y. 2016) ................ 28, 29
In re Picard,
917 F.3d 85 (2d Cir. 2019) ........................................ 35
Loginovskaya v. Batratchenko,
764 F.3d 266 (2d Cir. 2014) ........................................ 5
Lykuong Eng v. Akra Agric. Partners, Inc.,
2017 WL 5473481 (W.D. Tex. Aug. 9, 2017) .......... 35
Morrison v. Nat’l Austl. Bank Ltd.,
561 U.S. 247 (2010) .......................................... passim
Myun-Uk Choi v. Tower Research Capital LLC,
890 F.3d 60 (2d Cir. 2018) ........................................ 35

vii
Parkcentral Global Hub Ltd. v. Porsche Auto.
Holdings SE,
763 F.3d 198 (2d Cir. 2014) ............................. passim
RJR Nabisco, Inc. v. European Cmty.,
136 S. Ct. 2090 (2016) ...................................... passim
Stoyas v. Toshiba Corp.,
896 F.3d 933 (9th Cir. 2018) ........................... passim
United States v. Sindzingre,
2019 WL 2290494 (E.D.N.Y. May 29, 2019) .......... 32
WesternGeco LLC v. ION Geophysical Corp.,
138 S. Ct. 2129 (2018) ................................... 11, 22, 23
Statutes:
7 U.S.C.
§ 2(i) ...................................................................... 32, 33
§ 5(b) ................................................................... 5, 6, 26
§ 9(1) .................................................................. passim
§ 13(a)(2) ........................................................... passim
§ 25(a)(1) ........................................................... passim
15 U.S.C. § 78j(b) .................................................. passim
Dodd-Frank Wall Street Reform and Consumer
Protection Act, Pub. L. No. 111-203, 124 Stat.
1376 (2010) ..................................................... 32, 33, 34
Other Authorities:
CFTC Reauthorization Act of 2019, H.R. 4895,
116th Congress (1st Sess. 2019) ............................. 34
U.S. Br., Toshiba Corp. v. Auto. Indus. Pension
Tr. Fund, No. 18-486 (May 20, 2019) ............... 20, 34

INTRODUCTION
Petitioners commenced this litigation seven years
ago based on reports of an investigation by the European Commission of allegedly manipulative transactions in Brent crude oil extracted from the North Sea
in Europe. Although the European Commission’s investigation concluded with no enforcement action
against respondents, petitioners want this putative
class action to continue. Petitioners allege that respondents—a diverse group of oil producers, refiners,
distributors, and traders—violated Sections 6(c)(1)
and 9(a)(2) of the Commodity Exchange Act (“CEA”),
the CEA’s anti-manipulation provisions.
As the Second Circuit observed, petitioners’ theory
of liability is a “falling row of dominoes commencing in
the North Sea.” Pet.App. 23a. Petitioners posit that:
(i) respondents entered into manipulative transactions
to buy or sell Brent crude oil at foreign ports in Europe; (ii) respondents reported those foreign transactions to a foreign price-reporting agency in London;
(iii) the foreign price-reporting agency incorporated
the foreign transactions into a foreign benchmark, the
Dated Brent Assessment; (iv) the Dated Brent Assessment somehow influenced another foreign benchmark,
the ICE Brent Index; and (v) petitioners traded futures that settled based on the ICE Brent Index on a
European exchange and a U.S. exchange. The lower
courts correctly rejected petitioners’ attempt to state
a CEA claim based on allegations of entirely foreign
conduct by respondents and an “attenuated ‘ripple effects’ theory,” Pet.App. 20a, as an impermissible extraterritorial application of the CEA under the framework
established by Morrison v. National Australia Bank

2
Ltd., 561 U.S. 247 (2010). No further review is warranted.
In Morrison, this Court applied the presumption
against extraterritorial application of federal statutes
to the Securities Exchange Act of 1934 (the “1934
Act”). This case, by contrast, concerns the extraterritorial reach of the CEA, a different statute with a different text and structure that addresses different markets. Petitioners point to no circuit split on the CEA’s
extraterritorial reach or on Morrison’s application to
the CEA, and the decision below does not conflict with
any decision of this Court. Neither this Court nor any
other court of appeals has applied Morrison to the
CEA.
Moreover, the decision below rests on two alternative and independent holdings. Even petitioners concede the absence of a circuit split on one holding—that
the focus of Sections 6(c)(1) and 9(a)(2) of the CEA is
on the defendant’s alleged manipulation, not the plaintiff’s transactions. The absence of a circuit split on this
dispositive ruling makes this case a poor vehicle for the
Court’s review and is reason enough to deny certiorari.
On the other holding—the extraterritorial reach of
Section 22 of the CEA, the statute’s private right of action—petitioners try to create a split with the Ninth
Circuit’s decision in Stoyas v. Toshiba Corp., 896 F.3d
933 (9th Cir. 2018), a case involving Section 10(b) of the
1934 Act. But the Second Circuit’s interpretation of
Section 22 based on the CEA’s text and structure does
not conflict with Toshiba’s interpretation of Section
10(b) based on the 1934 Act’s text and structure.

3
Nor is there a conflict with any decision of this
Court. The Second Circuit faithfully applied Morrison’s framework to the CEA and carefully analyzed the
text and structure of Sections 6(c)(1), 9(a)(2), and 22 in
holding that petitioners fail to plead a domestic application of the CEA. Petitioners’ suggestion that the
Second Circuit is a rogue circuit “thumbing its nose at
this Court,” although colorful, is false. Pet. 3.
This case also is a particularly poor vehicle for this
Court to address the CEA’s extraterritorial reach for
the additional reason that the outcome here would not
change even if this Court were to grant certiorari and
reverse. In an accompanying order rejecting petitioners’ antitrust claims—which petitioners do not ask this
Court to review—the Second Circuit held that the complaint fails to allege that the Dated Brent Assessment,
the benchmark supposedly affected by respondents’ alleged manipulation, was incorporated into the price of
the futures petitioners purportedly traded on a U.S.
exchange. That holding is fatal to both petitioners’
claim of a domestic application of the CEA and their
theory of liability. As a result, on any remand from this
Court, the Second Circuit still would reject petitioners’
CEA claims. Furthermore, petitioners fail adequately
to allege that respondents’ purported manipulation of
the price of Brent crude oil was intended to affect the
price of futures traded on a U.S. exchange. That pleading deficiency also is fatal to petitioners’ claims and distinguishes this case from the hypothetical fact patterns
discussed in the petition and various amicus briefs.
Finally, the decision below is of little significance
beyond its resolution of the claims asserted here. Petitioners contend that the Second Circuit’s ruling could
have negative consequences for U.S. enforcement

4
agencies’ pursuit of traders that intentionally engage
in foreign manipulation in order to profit on U.S. futures trades. That is not this case. Given the highly
attenuated chain of causation alleged here and the absence of any non-conclusory allegation that respondents plausibly intended to profit on U.S. futures trading, the decision below will have little, if any, impact on
the ability of the Commodity Futures Trading Commission (“CFTC”) and the Department of Justice
(“DOJ”) to bring enforcement actions. And any potential gaps in the CEA’s reach should be resolved not by
writ of certiorari but by Congress, which already is
considering this issue. Conversely, granting and reversing here could open the federal courts to a flood of
litigation based on allegations mirroring the attenuated “ripple effects” theory asserted in this case.
In short, petitioners offer no reason for this Court’s
review, and their petition should be denied.
OPINIONS BELOW
The Second Circuit’s opinion affirming dismissal of
petitioners’ CEA claims (Pet.App. 1a-24a) is reported
at 937 F.3d 94. The Second Circuit’s order affirming
dismissal of petitioners’ antitrust claims and their
claims against respondents Shell International Trading and Shipping Company Ltd. and Statoil ASA (now
known as Equinor ASA) (Pet.App. 25a-35a) is not reported but is available at 784 F. App’x 4. The district
court’s opinion dismissing petitioners’ complaint
(Pet.App. 36a-72a) is reported at 256 F. Supp. 3d 298.

5
STATEMENT
A. Legal Framework
1. The presumption against extraterritorial application of federal statutes reflects a “longstanding principle of American law ‘that legislation of Congress, unless a contrary intent appears, is meant to apply only
within the territorial jurisdiction of the United
States.’” Morrison, 561 U.S. at 255. In Morrison, this
Court established a two-step framework for applying
that presumption. At the first step, courts consider
whether Congress provided “affirmative indication”
that a statute “applies extraterritorially.” Id. at 265.
Absent such indication, the statute “does not apply extraterritorially,” id. at 266, and courts move to the second step. There, courts assess whether a “domestic application” of the statute is alleged by analyzing
whether the “activity … involved in the case” is “the
object[] of the statute’s solicitude.” Id. at 266-67. This
two-step framework is “applied separately to both [the
statute’s] substantive prohibitions and its private right
of action.” RJR Nabisco, Inc. v. European Cmty., 136
S. Ct. 2090, 2108 (2016).
Morrison applied this framework to Section 10(b)
of the 1934 Act. The two cases discussed at length in
the petition, Parkcentral Global Hub Ltd. v. Porsche
Automobile Holdings SE, 763 F.3d 198 (2d Cir. 2014),
and Toshiba, likewise applied Morrison’s framework
to the 1934 Act. In Loginovskaya v. Batratchenko, 764
F.3d 266 (2d Cir. 2014), the Second Circuit applied
Morrison’s framework to the CEA for the first time.
It is the only court of appeals to have done so.
2. A key purpose of the CEA is “to deter and prevent price manipulation or any other disruptions to

6
market integrity.” Pet.App. 22a (quoting 7 U.S.C.
§ 5(b)). To that end, the CEA contains two anti-manipulation provisions. Section 6(c)(1), titled “Prohibition
against manipulation,” makes it unlawful to “use or employ, or attempt to use or employ, in connection with ...
a contract of sale of any commodity in interstate commerce, or for future delivery on or subject to the rules
of any registered entity, any manipulative or deceptive
device or contrivance.” 7 U.S.C. § 9(1). Section 9(a)(2)
similarly prohibits, in relevant part, “manipulat[ion] or
attempt[s] to manipulate the price of any commodity in
interstate commerce, or for future delivery on or subject to the rules of any registered entity.” Id.
§ 13(a)(2).
Section 22 of the CEA creates a private right of action for parties that engaged in certain domestic transactions to recover damages for harm caused by violations of the CEA’s substantive provisions. 7 U.S.C.
§ 25(a)(1)(D). Such an action may be brought against
any person “who violates [the CEA] or who willfully
aids, abets, counsels, induces, or procures the commission of a violation of [the CEA].” Id. Section 22 holds
violators “liable for actual damages ... caused by such
violation” if the violation involved the use of “any manipulative device or contrivance” or “a manipulation of
the price of any such contract ... or the price of the commodity underlying such contract.” Id.
B. Factual Background
1. Brent crude oil is extracted from oil fields in the
North Sea. Pet.App. 4a. It then is transported to ports
in Europe and sold in private over-the-counter (“OTC”)
transactions. Because of the private and bilateral nature of those transactions, even a daily price of Brent

7
crude oil is not readily available. Id. Market participants instead rely on price-reporting agencies that collect and disseminate price information on the OTC
transactions. Id. London-based Platts (U.K.) LTD
(“Platts”) is one such price-reporting agency. Id.
Platts publishes various Brent-related benchmarks,
one of which is the Dated Brent Assessment. Id. That
benchmark is based on transactions in physical cargoes
of the four different grades of North Sea oil that have
been assigned specific delivery dates. Id. at 4a-5a.
Petitioners purportedly traded Brent futures and
other Brent derivatives. Pet.App. 5a-6a. Most of their
alleged trades were on the Intercontinental Exchange
(“ICE”) Futures Europe, a foreign exchange in London. A small number, however, were on the domestic
New York Mercantile Exchange (“NYMEX”). Id.
Brent futures traded on ICE Futures Europe are
cash-settled based on the ICE Brent Index, a different
benchmark that incorporates an average of several
price assessments. Pet.App. 6a. Petitioners do not allege that the Dated Brent Assessment is one of those
price assessments. Id. at 30a, 40a-41a, 54a. In fact,
they “concede that the Dated Brent Assessment is not
‘express[ly] incorporat[ed]’ into the ICE Brent Index.”
Id. at 30a. Brent futures traded on NYMEX are based
on the price of ICE Brent futures, and therefore are
pegged indirectly to the ICE Brent Index. Id. at 6a.
Respondents are a diverse group of participants in
numerous aspects of the oil business. Their activities
include producing, refining, and distributing Brent
crude oil; buying and selling Brent crude oil; trading
various derivatives tied to Brent crude oil prices; and
investment banking. C.A.App. 1956-60. Respondents

8
thus have differing and often conflicting interests in
the price of Brent crude oil at any given time. E.g., id.
at 2119-20.
2. Petitioners do not allege that respondents engaged in any manipulative trading of Brent futures on
NYMEX or ICE Futures Europe. Pet.App. 8a. They
instead allege that respondents manipulated the price
of physical oil extracted from the North Sea when it
was sold at European ports and then reported those
transactions to Platts. Id. at 7a. According to petitioners, the allegedly manipulative transactions, in turn,
purportedly influenced Platts’ Dated Brent Assessment. Id.
The complaint does not allege that petitioners
traded any futures directly pegged to the Dated Brent
Assessment, but rather that they traded futures based
on a different benchmark—the ICE Brent Index.
Pet.App. 5a-6a. As the Second Circuit explained, petitioners contend that respondents’ purportedly manipulative transactions in Brent crude oil in Europe “initiated a chain of events that caused ripple effects across
global commodities markets” and that ultimately had
some undefined impact on petitioners’ trades on ICE
Futures Europe and NYMEX, which were based, either directly or indirectly, on the ICE Brent Index. Id.
at 8a, 20a.
The complaint makes only conclusory and speculative allegations as to respondents’ motive for engaging
in purportedly manipulative foreign transactions to
buy or sell oil. C.A.App. 2118-20. As petitioners admit,
because respondents include oil producers, refiners,
distributors, and traders, the “[f]actors motivating
[their alleged] manipulation varied among [them] and

9
may have changed at times during the Class Period.”
Id. at 2119-20.
Petitioners do not identify any futures trades by respondents. Rather, based on general statements in respondents’ annual reports or on their websites, the
complaint merely asserts that respondents or their affiliates “traded Brent Crude Oil futures contracts and
other Brent Crude Oil derivative contracts.” C.A.App.
2095-105. From this, the complaint contends, with no
supporting facts, that respondents intended “at least in
part to benefit their Brent Crude Oil derivatives positions.” Id. at 1948.
C. Proceedings Below
1. In 2013, following reports of the European Commission’s investigation of allegedly anticompetitive
practices by parties that participated in the Platts
price-assessment process, various putative class actions were filed against respondents. Those actions
were consolidated in the U.S. District Court for the
Southern District of New York. Pet.App. 8a. The European Commission’s investigation that prompted this
litigation ended with no enforcement action against respondents.
As relevant here, the complaint alleges that respondents manipulated the price of Brent crude oil in
violation of Sections 6(c)(1) and 9(a)(2) of the CEA.
Pet.App. 8a.1 Respondents moved to dismiss petitioners’ CEA claims under Rule 12(b)(6) as impermissibly
The complaint also asserted antitrust and unjust enrichment
claims. The Second Circuit affirmed the district court’s dismissal of
those claims, Pet.App. 30a-31a, 55a, 66a-67a, and petitioners do not
seek further review.
1

10
extraterritorial because respondents’ alleged manipulation occurred entirely overseas and this lawsuit’s
only connection to the United States is petitioners’ futures trades on NYMEX. Pet.App. 8a, 9a, 46a. 2
2. The district court dismissed petitioners’ CEA
claims as impermissibly extraterritorial. Under Morrison’s first step, the court held that “[t]he CEA does
not contain any statements suggesting that Congress
intended the reach of the law to extend to foreign conduct.” Pet.App. 49a. Under the second step, the court
relied on the “logic underlying” the Second Circuit’s
decision in Parkcentral, which held that a domestic
transaction is necessary, but not sufficient, to plead a
domestic application of the 1934 Act. Pet.App. 52a-54a.
The district court concluded that petitioners’ claims involved an extraterritorial application of Section 22 of
the CEA because “the crux of [petitioners’] complaint[]
against [respondents] does not touch the United
States.” Id. at 53a. As the court explained, petitioners’
“claims are based on [respondents’] allegedly manipulative and misleading reporting to Platts in London
about physical Brent crude oil transactions conducted
entirely outside of the United States” that, at most, “indirectly affected” the Brent futures petitioners purportedly traded, which “do[] not incorporate the Dated
Brent assessment.” Id. at 53a-54a.

2
Respondents Shell International Trading and Shipping Company Ltd. and Statoil ASA (now known as Equinor ASA) separately
moved to dismiss on personal-jurisdiction and sovereign-immunity
grounds, respectively. The Second Circuit affirmed the district
court’s grant of those motions, Pet.App. 31a-34a, and petitioners do
not seek further review.

11
3. Applying Morrison’s framework to the CEA, the
Second Circuit unanimously affirmed based on the
CEA’s text and structure.
a. Under Morrison’s first step, the Second Circuit
“assess[ed] the text of each of the three provisions implicated by this suit ... to determine if any of them contains ‘a clear indication of extraterritoriality.’”
Pet.App. 11a. Because Sections 6(c)(1), 9(a)(2), and 22
are “silent as to extraterritorial reach,” the court concluded that Congress did not intend for those provisions “to apply to conduct abroad.” Id. at 12a.
b. Under Morrison’s second step, the Second Circuit considered “[w]hether [petitioners’] claims constitute a satisfactory domestic application of the CEA.”
Pet.App. 15a. Following Morrison, the Second Circuit
“discern[ed] the ‘focus of congressional concern’ in enacting the statute” by “consider[ing] the ‘conduct’ that
the statute ‘seeks to regulate,’ as well as ‘the parties
and interests it seeks to protect or vindicate.’” Id.
(quoting WesternGeco LLC v. ION Geophysical Corp.,
138 S. Ct. 2129, 2137 (2018)). And following RJR
Nabisco, the court “separately appl[ied]” its analysis to
the CEA’s private right of action and substantive provisions. Id. (quoting RJR Nabisco, 136 S. Ct. at 2106).
As the Second Circuit recognized, the CEA requires
petitioners to plead a proper domestic application of
both the CEA’s private right of action and its substantive provisions. Id.
i. Starting with the CEA’s private right of action,
the Second Circuit held that a plaintiff must allege a
“domestic transaction” to plead “a proper domestic application of Section 22.” Pet.App. 16a. But that is not
enough, the court reasoned, based on the CEA’s text

12
and structure. As the Second Circuit explained, “Section 22 creates no freestanding, substantive legal obligations; instead, it requires the ‘commission of a violation of [the CEA].’” Id. at 17a. The Second Circuit determined that “the conduct-regulating provisions of
the CEA—particularly those at issue here—apply only
to domestic conduct, and not to foreign conduct.” Id.
The court thus concluded that “while a domestic transaction is necessary to invoke Section 22, it is not sufficient, for a plaintiff must also allege a domestic violation of one of the CEA’s substantive provisions.” Id.
In so ruling, the Second Circuit observed that
“Parkcentral’s insight—that a domestic securities
transaction is necessary but not sufficient to state a
claim under Section 10(b) [of the 1934 Act]—is required by the text and structure of Section 22.”
Pet.App. 17a (citation omitted). “To hold otherwise,”
the Second Circuit stressed, “would be to divorce the
private right afforded in Section 22 from the requirement of a domestic violation of a substantive provision
of the CEA.” Id.
Turning to petitioners’ factual allegations, the Second Circuit held that petitioners “failed to plead a
proper domestic application of Section 22.” Pet.App.
20a-21a. “To state a claim under Section 22,” the court
stated, petitioners must allege “domestic—not extraterritorial—conduct by [respondents] that is violative
of a substantive provision of the CEA.” Id. at 18a. The
Second Circuit concluded that the alleged misconduct
here was “entirely foreign,” as petitioners “make no
claim that any manipulative oil trading occurred in the
United States” and instead rely on an “attenuated ‘ripple effects’ theory” that does not reach “American

13
shores” until the “fifth” supposed step in the causal
chain. Id. at 20a.
ii. The Second Circuit also found petitioners’ CEA
claims to be impermissibly extraterritorial for a second, independent reason: petitioners “failed to plead a
proper domestic application of either Section 6(c)(1) or
9(a)(2).” Pet.App. 21a. The Second Circuit determined
that the “focus” of Section 6(c)(1) is on “manipulation
in commodities markets” based on “the plain text of the
statute” and its statement of purpose. Id. at 21a-22a.
The court explained that, unlike in Section 10(b) of the
1934 Act, there “is nothing in Section 6(c)(1)’s text suggesting that it is focused on ‘purchases and sales of securities in the United States,’ and other available evidence in the CEA, such as that statute’s statement of
purpose, suggests that the focus is on rooting out manipulation and ensuring market integrity—not on the
geographical coordinates of [a plaintiff’s] transaction.”
Id. The Second Circuit similarly concluded that Section 9(a)(2)’s focus is on “preventing manipulation of
the price of any commodity” because it “proscribes
‘manipulat[ing] or attempt[ing] to manipulate the price
of any commodity in interstate commerce.’” Id. at 22a23a.
As to petitioners’ factual allegations, the Second
Circuit stressed that all of respondents’ alleged conduct relevant to the focus of Sections 6(c)(1) and 9(a)(2)
“occurred abroad—[petitioners] contend that [respondents] sought to manipulate the price of Brent
crude, and did so by fraudulently transacting in the
physical market in Europe.” Pet.App. 23a. The court
emphasized that petitioners “make no allegation of manipulative conduct” in the United States, but rather
“expressly rely on a ‘ripple effect’ or chain of events

14
that resembles a falling row of dominoes commencing
in the North Sea.” Id. Because petitioners “have not
pleaded a domestic application of either Section 6(c)(1)
or 9(a)(2),” the Second Circuit did “not decide whether
Parkcentral applies to those sections.” Id. at 23a n.9.
4. In affirming the dismissal of petitioners’ CEA
claims, the Second Circuit recited petitioners’ contention, not pleaded in their complaint, that the Dated
Brent Assessment, the benchmark supposedly affected
by respondents’ alleged manipulation, was one of the
price assessments incorporated into the ICE Brent Index, the pricing benchmark for petitioners’ futures
contracts. Pet.App. 6a.
In a separate opinion rejecting petitioners’ antitrust claims, however, the Second Circuit held that petitioners lack antitrust standing because they do not allege that the price of their futures contracts is linked
to the Dated Brent Assessment. Pet.App. 29a-31a. As
the Second Circuit explained, petitioners fail to plead
that they traded “derivative instruments directly
pegged to the Dated Brent Assessment.” Id. at 29a30a.
Instead, the court stated, petitioners
“acknowledge that the operative pricing benchmark
for Brent futures ... is the ICE Brent Index, not the
Dated Brent Assessment,” and petitioners “concede
that the Dated Brent Assessment is not ‘express[ly] incorporat[ed]’ into the ICE Brent Index.” Id. at 30a. In
so ruling, the Second Circuit rejected petitioners’ “efforts to re‐write their complaint—in order to show that
the ICE Brent Index directly incorporates the Dated
Brent Assessment.” Id.

15
5. The Second Circuit denied petitioners’ request
for rehearing and rehearing en banc without dissent.
Pet.App. 73a-74a.
ARGUMENT
The Second Circuit’s unanimous decision holding
that petitioners fail to plead a domestic application of
the CEA does not warrant review.
First, the decision below involved CEA claims and
thus does not conflict with any decision of any other
court of appeals. The split that petitioners contend exists between the Second and Ninth Circuits relates to
claims under a different statute—the 1934 Act. The
lack of conflict between the Second Circuit’s interpretation of the CEA in this case and the Ninth Circuit’s
interpretation of the 1934 Act in Toshiba is reason
enough to deny certiorari.
Even if the Court were tempted to address petitioners’ purported split notwithstanding that this case involves a different statute, it still would make no sense
to grant certiorari here because the Court also would
have to decide a second question on which petitioners
concede there is no circuit split. As petitioners
acknowledge, the Second Circuit’s ruling on the CEA’s
extraterritorial reach rests on two alternative and independent holdings: one construing the CEA’s private
right of action and the other interpreting the statute’s
substantive provisions. In concluding that petitioners
have not alleged a domestic application of the CEA’s
substantive provisions, the Second Circuit held that
the relevant focus of Sections 6(c)(1) and 9(a)(2) is respondents’ supposedly manipulative conduct, not petitioners’ transactions. Pet.App. 21a-23a. Petitioners

16
admit there is no circuit split on that ruling. The presence of a concededly split-less alternative ground for
the judgment below makes the denial of certiorari here
an even easier call.
Second, the decision below does not conflict with
any decision of this Court and is correct. The Second
Circuit carefully analyzed the CEA under Morrison’s
two-step framework to assess its extraterritorial
reach. In a well-reasoned decision, the Second Circuit
determined the focus of congressional concern for each
provision at issue based on the CEA’s text and structure, and correctly concluded that petitioners’ CEA
claims are impermissibly extraterritorial.
Third, this case is a particularly poor vehicle for the
Court to address the CEA’s extraterritorial reach. As
the Second Circuit held in a companion order that is
not the subject of the petition, the complaint fails to allege that the Dated Brent Assessment was incorporated into the price of the futures petitioners supposedly traded on a U.S. exchange. This failure eliminates
the possibility of a domestic application of the CEA
even under petitioners’ statutory interpretation because it severs the link between the alleged manipulation and petitioners’ purported domestic transactions.
It also is fatal to petitioners’ CEA claims on the merits.
Nor do petitioners adequately plead that respondents’
alleged manipulation of the price of physical oil was
motivated by a desire to profit on futures trading in the
United States. That pleading failure independently
dooms petitioners’ CEA claims on the merits and distinguishes this action from the hypotheticals and CEA
enforcement actions discussed in the petition and various amicus briefs.

17
Finally, petitioners exaggerate the practical significance of the decision below beyond the confines of this
case. Contrary to petitioners’ suggestion, the Second
Circuit’s decision is unlikely to limit the ability of the
CFTC and DOJ to enforce the CEA or lead to inconsistent application of Morrison.
A. The Decision Below Does Not Conflict With Any
Decision Of Any Other Court Of Appeals.
Petitioners attempt to manufacture a circuit split
between the Second and Ninth Circuits on the proper
application of Morrison based on decisions interpreting the 1934 Act—a different statute with a different
text and structure designed to regulate different types
of markets. In both the decision below and the Ninth
Circuit’s decision in Toshiba, the courts applied Morrison’s framework to the specific text and structure of
the different statutes at issue. The courts reached different outcomes based on differences between those
statutes, not based on differences as to the proper application of Morrison. Petitioners fail to identify any
split on the question actually presented in this case:
the CEA’s extraterritorial reach. That is reason
enough to deny certiorari.
What is more, petitioners concede that there is no
split on one wholly independent basis for the Second
Circuit’s decision—the focus of Sections 6(c)(1) and
9(a)(2) of the CEA for purposes of determining
whether a domestic application of the CEA’s substantive provisions is pleaded. Neither is there a conflict
on the other basis for the decision below—the focus of
Section 22 of the CEA.

18
1. Petitioners Concede That No Split Exists Over
Applying Morrison To The CEA’s Substantive
Provisions.
To determine whether a plaintiff has alleged a domestic application of a particular statute, Morrison instructs courts to look to the “‘focus’ of congressional
concern” in enacting the statute. 561 U.S. at 266. Applying that “mode of analysis,” id., the Second Circuit
concluded that the “focus” of Sections 6(c)(1) and
9(a)(2) of the CEA is “on manipulation in commodities
markets,” not on plaintiffs’ transactions, Pet.App. 21a23a. This alternative holding provides an independent
basis for the Second Circuit’s ruling that petitioners
“failed to plead a proper domestic application” of the
CEA. Id.
Petitioners concede that there is no circuit split on
this alternative holding. Pet. 26 (“[N]o court has
squarely rejected the Second Circuit’s holding below
on the second question presented.”). And for good reason: the Second Circuit explicitly stated that its alternative holding does not rely on Parkcentral, the Second Circuit’s earlier decision interpreting the 1934 Act
that supposedly creates a split with the Ninth Circuit’s
Toshiba decision. In fact, in the section of its opinion
devoted to the CEA’s substantive provisions, the Second Circuit did not cite Parkcentral except to say in a
footnote that it was not considering that decision.
Pet.App. 23a n.9 (“[W]e need not decide whether Parkcentral applies to” Section 6(c)(1) or 9(a)(2).).
Unable to point to a split, petitioners fall back on
the broad-brush principle that “parallel language in
the CEA and [the 1934 Act]” should “presumptively receive the same interpretation.” Pet. 26. But as explained below, infra Part B.3.a, petitioners overstate

19
the linguistic similarity between the two statutes for
purposes of applying Morrison’s framework. None of
the decisions petitioners cite interpreted Sections
6(c)(1) and 9(a)(2) of the CEA to determine the focus of
congressional concern or the proper application of
Morrison.
For example, in CFTC v. Monex Credit Co., 931
F.3d 966, 969 (9th Cir. 2019), the Ninth Circuit considered whether “Dodd-Frank extended the CFTC’s
power only to fraud-based manipulation claims.”
Monex does not address the extraterritorial reach of
the CEA or Congress’s focus in enacting the CEA’s
anti-manipulation provisions. Greenwood v. Dittmer,
776 F.2d 785 (8th Cir. 1985)—which predates Section
6(c)(1) by 25 years—is even less relevant. Like Monex,
Greenwood does not concern the extraterritorial reach
of the CEA. Nor does it involve either of the CEA antimanipulation provisions at issue here, let alone Congress’s focus in enacting them. Id. at 787. Petitioners’
reliance on these readily distinguishable cases underscores the conceded absence of any circuit split.
2. Neither Is There A Split Over Applying Morrison
To The CEA’s Private Right Of Action.
In arguing that the Second Circuit’s interpretation
of the CEA’s private right of action in this case implicates a circuit split, petitioners point to two decisions—
the Second Circuit’s Parkcentral decision and the
Ninth Circuit’s Toshiba decision—that involved a different statute, the 1934 Act. Like the decision below,
Toshiba and Parkcentral turned on the specific language and structure of the statute at issue.
In Toshiba, plaintiffs asserted claims under Section 10(b) of the 1934 Act on behalf of a putative class

20
of purchasers of American Depositary Receipts
(“ADRs”) linked to the value of Toshiba common stock.
896 F.3d at 937-38, 941. Although Toshiba common
stock is traded on a foreign exchange, plaintiffs purchased their ADRs in the United States on an OTC
market. Id. at 939, 946. In determining whether plaintiffs alleged a domestic application of Section 10(b), the
Ninth Circuit “[a]nalyz[ed] the text of Section 10(b)”
and applied Morrison’s holding that “the focus of the
[1934] Act is ... upon purchases and sales of securities
in the United States.” Id. at 936, 944. Notwithstanding
that the OTC market for Toshiba ADRs is “not an ‘exchange’ under the [1934] Act,” the Ninth Circuit held
that plaintiffs’ OTC trades could qualify as domestic
transactions under Morrison if plaintiffs incurred “irrevocable liability” in the United States. Id. at 945,
949.
Nothing in the Ninth Circuit’s “straightforward application of ... Morrison” to Section 10(b) of the 1934
Act, U.S. Br. 8, Toshiba Corp. v. Auto. Indus. Pension
Tr. Fund, No. 18-486 (May 20, 2019), conflicts with the
Second Circuit’s application of Morrison to Section 22
of the CEA. Indeed, the 1934 Act contains no equivalent to Section 22’s private right of action for violations
of the CEA’s substantive provisions because Section
10(b) claims rest on an implied private right of action.
See Ernst & Ernst v. Hochfelder, 425 U.S. 185, 196
(1976). The Second Circuit’s holding that “a domestic
transaction ... is ‘necessary’ to invoke ... Section 22” of
the CEA, but “not ‘sufficient,’” Pet.App. 19a, was based
on the “text and structure of Section 22,” id. at 17a.
The Second Circuit considered how the CEA’s private
right of action “works in tandem with other provisions”

21
of the statute in “discern[ing]” the “focus of congressional concern.” Id. at 15a, 17a. It concluded that a
domestic transaction is necessary to plead a domestic
application of Section 22, but not sufficient, “for a
plaintiff must also allege a domestic violation of one of
the CEA’s substantive provisions.” Id. at 17a.
Based as it was on an interpretation of the CEA, the
decision below does not conflict with Toshiba. Petitioners nevertheless attempt to manufacture an indirect
split with the Ninth Circuit simply because the decision
below, in considering the extraterritorial reach of Section 22, cited Parkcentral, a decision the Ninth Circuit
distinguished in Toshiba. Although the Second Circuit
discussed Parkcentral in interpreting Section 22, its
decision was founded on the language and structure of
the CEA. The Second Circuit concluded that “Parkcentral’s insight—that a domestic securities transaction is necessary but not sufficient to state a claim under Section 10(b)—is required by the text and structure of Section 22.” Pet.App. 17a (emphasis added; citation omitted). As such, the Second Circuit’s discussion of Parkcentral in interpreting the CEA’s private
right of action does not conflict with Toshiba.
B. The Decision Below Is Correct And Does Not Conflict With Any Decision Of This Court.
The petition strains to depict the Second Circuit as
“thumbing its nose at this Court” by “finding ways to
prop-up the conduct-and-effects test that Morrison
acerbically rejected.” Pet. 3. To the contrary, the Second Circuit faithfully applied Morrison’s framework
for assessing the extraterritorial reach of federal statutes to the CEA’s specific text, structure, and purpose.

22
1. Tellingly, petitioners cite no decisions of this
Court addressing the CEA’s extraterritorial reach.
There are none. Because this Court has never considered the “focus” of the CEA provisions at issue here,
the decision below applying Morrison’s framework to
the CEA does not conflict with any decision of this
Court.
In Morrison, this Court applied the presumption
against extraterritoriality to claims under Section 10(b) of the 1934 Act. 561 U.S. at 250-51. After
first concluding that Section 10(b) does not “appl[y]
abroad,” id. at 262-65, the Court moved to the second
step of its analysis and determined that the “focus” of
Section 10(b) is “upon purchases and sales of securities
in the United States,” id. at 266. That determination
was based on the specific text, structure, and purpose
of the 1934 Act. See id. at 266-67 (considering Section 10(b)’s “purchase or sale” language and purpose
described in statute’s prologue). Thus, “the transactional test ... adopted” in Morrison is particular to the
1934 Act and says nothing about the “objects” of the
CEA’s “solicitude.” Id. at 267, 269. Contrary to petitioners’ suggestion, see Pet. 3, 6, 20, 26, 29, 31-34, Morrison does not stand for the proposition that every federal statute has a transactional focus just because Section 10(b) does. Instead, Morrison established a twostep framework of general applicability for determining the extraterritorial reach of federal statutes. See,
e.g., WesternGeco, 138 S. Ct. at 2136-37 (applying Morrison’s “two-step framework for deciding questions of
extraterritoriality” and discerning non-transactional
focus in Patent Act). In this case, the Second Circuit
correctly applied that general framework to the CEA.

23
Petitioners rely on two post-Morrison decisions applying the Morrison framework to determine the extraterritorial reach of different federal statutes: RJR
Nabisco and WesternGeco. Pet. 5, 14, 18, 22, 25, 31.
Petitioners cite those cases for the proposition that
“[i]f the conduct relevant to the statute’s focus occurred in the United States, then the case involves a
permissible domestic application,” id. at 31, but that
simply begs the question of what conduct is relevant to
the statute’s focus.
2. Petitioners argue that the Second Circuit’s holding that a domestic transaction is “necessary but not
sufficient” to plead a domestic application of Section 22
of the CEA added an extra requirement to Morrison’s
framework. Pet. 31. Not so. Under Morrison’s second
step, the Second Circuit held that although the focus of
the CEA’s private right of action is transactional,
plaintiffs also must allege a violation of one of the
CEA’s “conduct-regulating provisions,” which apply
“only to domestic conduct, and not to foreign conduct.”
Pet.App. 17a. As the court explained, “Section 22 creates no freestanding, substantive legal obligations; instead, it requires the ‘commission of a violation of [the
CEA].’” Id. In so ruling, the Second Circuit correctly
applied the Morrison framework “separately to ... [the
CEA’s] private right of action,” RJR Nabisco, 136 S.
Ct. at 2108, which has no analogue in the 1934 Act, and
correctly held based on “the text and structure of Section 22” that this provision must be assessed in concert
with the CEA’s substantive provisions, Pet.App. 17a
(citing WesternGeco, 138 S. Ct. at 2137). “To hold otherwise,” the Second Circuit stressed, “would be to di-

24
vorce the private right [of action] afforded in Section 22 from the requirement of a domestic violation of
a substantive provision of the CEA.” Id.
3. The Second Circuit’s alternative holding that petitioners “failed to plead a proper domestic application
of either Section 6(c)(1) or 9(a)(2),” Pet.App. 21a, likewise correctly applied Morrison to the CEA. The Second Circuit expressly followed Morrison’s direction to
determine the “focus” of those two substantive provisions, id. at 11a, 15a, and correctly concluded based on
their “plain text” and “purpose” that their focus is on
“manipulation in commodities markets” and “manipulation of the price of any commodity,” id. at 21a-23a.
a. Petitioners incorrectly state that Section 6(c)(1)
of the CEA and Section 10(b) of the 1934 Act are “identical.” Pet. 33. As the Second Circuit recognized, “the
language of Section 6(c)(1) crucially differs from [that
of] Section 10(b)” for purposes of applying Morrison’s
framework because “Section 6(c)(1)’s text” is not focused on “purchases and sales.” Pet.App. 21a-22a.
Petitioners argue that “Morrison’s core reason for
discerning that Section 10(b) focuses on transactions”
was that it “only [punishes] deceptive conduct ‘in connection with the purchase or sale of any security registered on a national securities exchange.’” Pet. 32. In
petitioners’ view, the phrase “in connection with” “established the ‘primacy of the domestic exchange’ as the
‘object’ of the [1934 Act’s] ‘solicitude.’” Id. But Morrison actually found that the key language of Section 10(b) is “purchase or sale.” After explaining that
“the focus of the [1934] Act” is “upon purchases and
sales of securities in the United States,” this Court reasoned that “those purchase-and-sale transactions are

25
the objects of the statute’s solicitude.” 561 U.S. at 26667 (emphases added); see also id. at 269-70 (“[t]he
transactional test we have adopted” depends on
“whether the purchase or sale is made in the United
States”) (emphasis added).
That “purchase or sale” language is absent from
Section 6(c)(1) of the CEA. As the Second Circuit correctly recognized, “[t]here is nothing in Section 6(c)(1)’s text suggesting that it is focused on ‘purchases and sales.’” Pet.App. 22a. Titled “Prohibition
against manipulation,” 7 U.S.C. § 9(1), Section 6(c)(1)
instead “centers on manipulation,” Pet.App. 22a. It
prohibits the use of “any manipulative or deceptive device or contrivance” “in connection with any swap, or a
contract of sale of any commodity in interstate commerce, or for future delivery on or subject to the rules
of any registered entity.” 7 U.S.C. § 9(1). Here, the
alleged “manipulative device” was respondents’ transactions in physical oil in Europe, thereby requiring an
extraterritorial application of the provision’s focus.
The same reasoning applies to Section 9(a)(2),
which proscribes “manipulat[ing] or attempt[ing] to
manipulate the price of any commodity in interstate
commerce, or for future delivery on or subject to the
rules of any registered entity.” 7 U.S.C. § 13(a)(2).
Section 9(a)(2) likewise lacks the “purchase or sale”
language central to Morrison’s holding that Section
10(b)’s focus is on purchase-and-sale transactions.
Thus, just as “Section 6(c)(1) centers on manipulation,”
Pet.App. 22a, “[t]he focus of Section 9(a)(2) is preventing manipulation,” id. at 23a. Here, the alleged manipulation took place entirely outside the United States,
thus again requiring an extraterritorial application of
the provision’s focus.

26
b. Following Morrison’s guidance, the Second Circuit also carefully considered the CEA’s statement of
purpose, which explains that “the purpose” of the CEA
is to “deter and prevent price manipulation or any
other disruptions to market integrity.” 7 U.S.C. § 5(b).
As the court explained, this “statement of purpose[]
suggests that the focus is on rooting out manipulation
and ensuring market integrity—not on the geographical coordinates of the [plaintiff’s] transaction.”
Pet.App. 22a.
4. Finally, the decision below is consistent with the
primary rationale underlying the presumption against
extraterritoriality—“avoid[ing] … international discord” from the application of U.S. law to “conduct in
foreign countries.” RJR Nabisco, 136 S. Ct. at 2100.
Petitioners do not plead a direct link between respondents’ alleged foreign manipulation and the United
States—just, in petitioners’ own words, “ripple effects.” Pet.App. 20a; see C.A.App. 1980. All the alleged misconduct was “entirely foreign”: respondents’
transactions in Brent crude oil occurred in Europe, and
they reported those transactions to Platts in London,
which allegedly affected a foreign benchmark.
Pet.App. 20a. Leaving aside the complaint’s conclusory assertions, the only alleged connection to the
United States is petitioners’ trading. Id. If all that is
required to plead a domestic application of the CEA is
domestic transactions by plaintiffs, even though
“[n]early every link in [the alleged] chain of wrongdoing is entirely foreign,” id., there would be regular con-

27
flict between U.S. and foreign laws, and “the presumption against extraterritorial application would be a craven watchdog indeed,” Morrison, 561 U.S. at 266. 3
C. The Decision Below Is An Exceptionally Poor Vehicle For Addressing The CEA’s Extraterritorial
Reach.
This case is littered with complications that counsel
strongly against certiorari. Apart from the issues addressed above, two additional impediments stand out.
1. The Second Circuit held (in a separate opinion
affirming the dismissal of petitioners’ antitrust claims)
that the complaint fails to plead that the foreign benchmark supposedly affected by respondents’ allegedly
manipulative physical-oil transactions, the Dated
Brent Assessment, is incorporated into the price of the
futures petitioners purportedly traded on a U.S. exchange. Pet.App. 30a. Petitioners do not seek this
Court’s review of that holding, which is fatal to petitioners’ CEA claims even under petitioners’ interpretation of the statute.
Even if this Court were to determine that the focus
of the relevant CEA provisions is on purchases and
sales of futures contracts, this Court still could not rule
in petitioners’ favor because petitioners fail plausibly
to allege a direct link between their futures transactions on a U.S. exchange and respondents’ allegedly
Petitioners’ contention that the decision below is “likely to precipitate conflict with foreign laws” because it “purport[s] to regulate
foreign transactions based on domestic conduct” misconstrues the
decision. Pet. 34-36. The Second Circuit held that Section 22 creates
a private right of action only for plaintiffs that suffered damages in
connection with domestic transactions because of domestic violations
the CEA’s substantive provisions. See Pet.App. 15a-23a.
3

28
manipulative conduct. Absent such a link, petitioners
have not even pleaded a domestic transaction supposedly affected by respondents’ alleged foreign manipulation. See Pet. 29 (arguing that “CEA’s substantive
provisions” should “apply to overseas manipulation
that impacts domestic commodities markets”) (emphasis added).
Petitioners’ entire claim of a domestic transaction—and thus a domestic application of the CEA—depends on their contention that their futures trades on
NYMEX were affected by respondents’ allegedly manipulative transactions in Brent crude oil. But the law
of the case is otherwise. The Second Circuit already
has held that the ICE Brent Index (the benchmark relevant to the pricing of petitioners’ futures trades) does
not incorporate the Dated Brent Assessment (the
benchmark supposedly affected by respondents’ alleged manipulation). See Pet.App. 30a (“[petitioners]
could not have suffered an antitrust injury if they dealt
in products that were not linked to the benchmark they
complained of”). Because petitioners cannot rely on
their purported domestic transactions to establish a
domestic application of the CEA here, petitioners essentially ask this Court for an impermissible advisory
opinion on the extraterritorial reach of the CEA.
Petitioners’ failure to allege that the ICE Brent Index incorporates the Dated Brent Assessment also
dooms their CEA claims on the merits. Petitioners do
not plead, as they must “[t]o establish a claim for price
manipulation under the CEA,” that respondents’ purported manipulation of the price of Brent crude oil
(which supposedly affected the Dated Brent Assessment) was the “proximate cause” of any losses petitioners suffered on futures trades that settled based on the

29
ICE Brent Index. In re London Silver Fixing, Ltd.,
Antitrust Litig., 213 F. Supp. 3d 530, 566, 568
(S.D.N.Y. 2016).
2. The complaint likewise fails adequately to allege
that respondents engaged in manipulative transactions
in Brent crude oil with the intent to distort the price of
futures traded on a U.S. exchange. That pleading failure not only requires dismissal of petitioners’ CEA
claims on the merits, see In re Commodity Exch., Inc.
Silver Futures & Options Trading Litig., 560 F. App’x
84, 86 (2d Cir. 2014), but also demonstrates that this
case bears no resemblance to the counterfactuals presented in the petition and various amicus briefs. Contrary to petitioners’ suggestion, the facts alleged here
are nothing like those in the “Black Sea Wheat” hypothetical discussed in the petition and the CFTC’s amicus brief below. See Pet. 14-16, 29-30; Pet.App. 106a08a.
In that hypothetical, the CFTC “imagine[d] a scenario in which traders in Turkey establish positions in
Black Sea Wheat contracts on [the Chicago Mercantile
Exchange]” and then artificially “disrupt a significant
portion of the physical supply” of that commodity “with
the intent to distort the price of the Black Sea Wheat
contract” directly.
Pet.App. 106a-07a (emphasis
added). Although the CFTC took “no position on
whether [petitioners] have stated a claim” under the
CEA on the different facts alleged here, the CFTC argued that it should be able to bring an enforcement action against the Turkish traders on the “clean set of
facts” in its hypothetical. Id. at 87a, 107a. Petitioners
point to this strawman hypothetical in arguing that the
Court should grant certiorari. See, e.g., Pet. 15-16, 2930.

30
In an effort to make this case resemble the CFTC’s
hypothetical, petitioners assert that respondents “intended” their transactions in physical Brent crude oil
“to affect domestic futures transactions [on U.S. exchanges] so that [respondents] could profit from positions they took in those” same futures. Pet. 9-10. But
the complaint’s factual allegations do not support that
assertion. Rather, the complaint offers only conclusory
and speculative theories of respondents’ supposed motivation. Given respondents’ varying roles as oil producers, refiners, distributors, traders, or some combination, the complaint attempts to plead intent in vague
alternatives. According to petitioners, the alleged manipulation was intended to “(a) enhance[] the value of
[respondents’] financial or derivative or physical positions, and (b) improve[] the price of purchase or sale
obligations.” C.A.App. 2118-19 (emphases added).
With respect to derivatives trading, petitioners offer only the bald assertion, with no supporting factual
allegations, that respondents’ physical-oil transactions
in the North Sea were intended “at least in part to benefit their Brent Crude Oil derivatives positions.”
C.A.App. 1948. The complaint does not identify any respondent’s supposed derivative positions or explain
how any such positions may have benefited from the
purportedly manipulative transactions. Instead, the
complaint merely alleges based on general statements
in respondents’ annual reports and on their websites
that respondents or their affiliates “actively traded
Brent Crude Oil futures contracts and other Brent
Crude Oil derivative contracts.” Id. at 2095-105.
Equally problematic, petitioners concede that the
“[f]actors motivating [respondents’] manipulation varied among [respondents] and may have changed at

31
times during the Class Period.” C.A.App. 2119. Because the alleged conspiracy includes oil producers, refiners, distributors, and traders, id. at 2119-20, the
complaint variously contends that (i) “refiners” sought
“lower crude oil prices,” (ii) “net exporter[s]” “prefer[red] higher prices” on some days but not others,
and (iii) “middle-men and traders” “opportunistic[ally]” benefitted from price movements based on
“their trading books,” id. at 2010, 2119-20. Given those
differing interests, petitioners’ theory that respondents conspired to manipulate the price of Brent crude
oil in the same direction makes no sense.
Simply stated, the complaint’s conclusory and contradictory allegations of intent are a far cry from the
CFTC’s hypothetical. This case is not a vehicle for this
Court to consider the extraterritorial application of the
CEA to overseas manipulation undertaken with an intent to affect the price of domestic futures trading.
D. Petitioners Exaggerate The Significance Of The
Decision Below.
The decision below is a straightforward application
of Morrison to the CEA and the unusual factual allegations of this case. Petitioners’ efforts to portray the
decision as a radical “expan[sion of] Parkcentral,” Pet.
2, that will hamstring U.S. enforcement agencies’ ability to pursue “international frauds they have long prosecuted,” id. at 4, are entirely overblown.
1. Petitioners’ contention that the Second Circuit’s
decision will foreclose U.S. authorities “from pursuing
criminals that intentionally use their foreign conduct to
steal from Americans transacting on American exchanges,” Pet. 3, overlooks a crucial point: None of the
enforcement actions that petitioners cite, or that the

32
CFTC raised in its amicus brief below, involves fact
patterns remotely similar to the facts alleged here. Petitioners cite United States v. Sindzingre, 2019 WL
2290494 (E.D.N.Y. May 29, 2019), as an example of a
U.S. “prosecution based on banks’ overseas manipulation of LIBOR”—a benchmark interest rate incorporated into a variety of financial instruments. Pet. 29.
In Sindzingre, however, the traders allegedly manipulated U.S. Dollar LIBOR, which is itself a domestic
commodity under the CEA. 2019 WL 2290494, at *12.
That manipulation, in turn, directly affected the price
of Eurodollar futures contracts traded on a U.S. exchange. Id. In other words, Sindzingre involved allegations of direct manipulation of a domestic commodity
and of futures contracts traded on a domestic exchange—both of which are missing here. See Pet.App.
7a, 30a, 40a-41a, 54a.
The decision below also has no effect on U.S. authorities’ ability to bring enforcement actions against
overseas manipulative conduct under Section 2(i) of the
CEA. Added to the CEA in 2010 as part of the DoddFrank Act, Section 2(i) provides that certain CEA provisions “relating to swaps ... shall not apply to activities
outside the United States unless those activities ...
have a direct and significant connection with activities
in, or effect on, commerce of the United States.” 7
U.S.C. § 2(i). “Unlike Sections 6(c)(1) and 9(a)(2), Section 2(i) contains, on its face, a ‘clear statement’ of extraterritorial application.” Pet.App. 13a (citation omitted). Petitioners waived the argument that their CEA
claims are not impermissibly extraterritorial under
Section 2(i) because they “neglected to raise this argument until after the district court rendered its final
judgment.” Id. at 13a-14a. As a result, the decision

33
below has no effect on the CFTC’s and DOJ’s authority
under Section 2(i) because the Second Circuit did not
interpret that provision. See CFTC v. TFS-ICAP,
LLC, 2020 WL 362930, at *3 (S.D.N.Y. Jan. 22, 2020)
(relying on Section 2(i) to bring enforcement action
against overseas conduct).
In any event, policing entirely foreign conduct—
such as that alleged here—is best left to foreign enforcement agencies. Those agencies can, and do, police
overseas manipulation of foreign commodities markets. And “the regulation of other countries often differs from ours.” Morrison, 561 U.S. at 269. In fact,
before this litigation was filed, the European Commission commenced an investigation of allegedly anticompetitive practices by parties that participated in the
Platts price-assessment process and ultimately chose
not to bring an enforcement action against respondents. Interference by U.S. authorities with this type of
foreign enforcement is exactly the type of conflict with
“foreign laws and procedures” that the presumption
against extraterritoriality is meant to avoid. Id.; see
also, e.g., RJR Nabisco, 136 S. Ct. at 2100 (“Most notably, [the presumption] serves to avoid the international
discord that can result when U.S. law is applied to conduct in foreign countries.”).
Even if the decision below could have some effect
on U.S. authorities’ efforts to enforce the CEA, expanding the overseas reach of domestic enforcement
agencies is best left to Congress, which is “able to calibrate [a statute’s] provisions in a way [this Court] cannot.” EEOC v. Arabian Am. Oil Co., 499 U.S. 244, 259
(1991). After Morrison, Congress amended the 1934
Act to expand the SEC’s authority to bring enforcement actions based on overseas conduct. See Dodd-

34
Frank Wall Street Reform and Consumer Protection
Act, Pub. L. No. 111-203, § 929P(b), 124 Stat. 1376,
1864 (2010). And Congress currently is considering
proposed legislation that would expand the CFTC’s
and DOJ’s ability to enforce the CEA against certain
conduct abroad. See CFTC Reauthorization Act of
2019, H.R. 4895, 116th Congress, § 112 (1st Sess. 2019).
Such recourse to the political branches is the proper
mechanism for redressing any perceived gaps in the
ability of U.S. authorities to carry out their enforcement missions abroad.
2. Petitioners also try to imbue the decision below
with added significance by claiming that the Second
Circuit’s decision “entrenche[s] disagreement” between the Second and Ninth Circuits and “recreates
the same uncertain case-by-case outcomes that Morrison” eschewed. Pet. 18, 31. Petitioners are incorrect
for several reasons.
First, any tension between the Second and Ninth
Circuits is between Parkcentral and Toshiba, not this
case and Toshiba. Parkcentral and Toshiba involved
the 1934 Act—a different statute with a different text
and structure that applies to different markets than
the CEA. Any purported split over the proper interpretation of the 1934 Act is not a reason to grant certiorari in this case. See supra Part A.2.
Second, Parkcentral does not squarely conflict with
Toshiba. As the Solicitor General explained in recommending the denial of certiorari in Toshiba, “no clear
conflict exists between [Toshiba] and ... Parkcentral.”
U.S. Br. 9, Toshiba Corp., No. 18-486. In Toshiba itself, the Ninth Circuit emphasized that “Parkcentral is
distinguishable on many grounds.” 896 F.3d at 950.

35
Third, any conflict between Parkcentral and
Toshiba has not resulted in a lack of uniformity among
courts of appeals in their application of Morrison to the
1934 Act. No other circuit has weighed in on this purported split over the extraterritorial reach of the 1934
Act, and only one district court outside the Second and
Ninth Circuits has discussed the issue. See Lykuong
Eng v. Akra Agric. Partners, Inc., 2017 WL 5473481,
at *2 (W.D. Tex. Aug. 9, 2017) (holding that Parkcentral does not apply under given facts, without any criticism of Second Circuit’s approach). By its own terms,
Parkcentral is sui generis, 763 F.3d at 217, and it has
had no widespread effect even within the Second Circuit. See In re Picard, 917 F.3d 85, 100 (2d Cir. 2019)
(finding “domestic applications” without citing Parkcentral); Myun-Uk Choi v. Tower Research Capital
LLC, 890 F.3d 60, 66-68 (2d Cir. 2018) (“Morrison
clearly provided that the ‘domestic transaction’ prong
is an independent and sufficient basis for application of
the [1934] Act to purportedly foreign conduct.”).
Fourth, the decision below will not leave “district
courts ... stumbling blind.” Pet. 27. The Second Circuit’s holding that the focus of the CEA’s substantive
provisions is on the defendant’s manipulative conduct
rather than the plaintiff’s transactions is a clear rule
that can be applied “uniform[ly] and predictab[ly]” to
evaluate whether CEA claims are impermissibly extraterritorial. Id.
3. If the Court were to grant review and reverse on
the facts of this case, a deluge of litigation could follow
modeled on the attenuated chain of causation posited
here—alleged manipulation of the price of a physical
commodity overseas that “cause[s] ripple effects
across global commodities markets” that “resemble[] a

36
falling row of dominoes” starting abroad and ultimately reaching “American shores.” Pet.App. 8a, 20a,
23a.
CONCLUSION
The petition should be denied.
Respectfully submitted,
DAVID S. L ESSER
WILMER CUTLER PICKERING
HALE AND DORR LLP
7 World Trade Center
250 Greenwich Street
New York, NY 10007
(212) 230-8800
PERRY LANGE
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Avenue,
NW
Washington, DC 20006
(202) 663-6000
Counsel for Respondents
Statoil ASA and Statoil U.S.
Holding Co.

RICHARD C. PEPPERMAN II
Counsel of Record
JULIA A. MALKINA
SULLIVAN & CROMWELL LLP
125 Broad Street
New York, NY 10004
(212) 558-4000
peppermanr@sullcrom.com
AMANDA FLUG DAVIDOFF
SULLIVAN & CROMWELL LLP
1700 New York Avenue, NW
Suite 700
Washington, DC 20006
(202) 956-7500
Counsel for Respondents BP
p.l.c., BP America Inc., and
BP Corporation North America Inc.

37
SHEPARD GOLDFEIN
KAREN H. L ENT
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
One Manhattan West
New York, NY 10001
(212) 735-3000

STEVEN A. REED
R. BRENDAN FEE
MORGAN, L EWIS & BOCKIUS
LLP
1701 Market Street
Philadelphia, PA 19103
(215) 963-5000

JONATHAN MARCUS
SKADDEN, ARPS, SLATE,
MEAGHER & FLOM LLP
1440 New York Avenue, NW
Washington, DC 20005
(202) 371-7000

DAVID B. SALMONS
MICHAEL E. KENNEALLY
MORGAN, L EWIS & BOCKIUS
LLP
1111 Pennsylvania Avenue,
NW
Washington, DC 20004
(202) 739-3000

Counsel for Respondents Vitol, Inc. and Vitol S.A.

KARL S. STERN
QUINN EMANUEL URQUHART
& SULLIVAN , LLP
711 Louisiana Street, Suite
500
Houston, TX 77002
(713) 221-7000
JULIA B ESKIN
QUINN EMANUEL URQUHART
& SULLIVAN , LLP
51 Madison Avenue, 22nd
Floor
New York, NY 10010
(212) 849-7000
Counsel for Respondents
Phibro Commodities Ltd.
and Phibro Trading LLC

Counsel for Respondents
Royal Dutch Shell, plc, Shell
International Trading and
Shipping Company Ltd., and
Shell Trading (US) Company
JOHN ROBERTI
KELSE MOEN
ALLEN & OVERY LLP
1101 New York Avenue, NW
Washington, DC 20005
(202) 683-3800
Counsel for Respondents
Mercuria Energy Trading,
Inc. and Mercuria Energy
Trading S.A.

38
WILLIAM A. BURCK
STEPHEN M. HAUSS
QUINN EMANUEL URQUHART
& SULLIVAN , LLP
1300 I Street, NW, Suite 900
Washington, DC 20005
(202) 538-8000

MELVIN A. B ROSTERMAN
FRANCIS C. HEALY
STROOCK & STROOCK & L AVAN LLP
180 Maiden Lane
New York, NY 10038
(212) 806-5400

Counsel for Respondents
Trafigura AG and Trafigura
Beheer B.V.

Counsel for Respondent Hess
Energy Trading Company,
LLC

RICHARD D. KLINGLER
KENNETH W. IRVIN
BENJAMIN M. MUNDEL
SIDLEY AUSTIN LLP
1501 K Street, NW
Washington, DC 20005
(202) 736-8000
Counsel for Respondent Morgan Stanley Capital Group
Inc.

APRIL 27, 2020

